Nos. 19-1066; 19-1078

 

IN THE

Supreme Court of the United States

COMCAST CORPORATION,
COMCAST CABLE COMMUNICATIONS, LLC,
Petitioners,
Vv.

CHARLES TILLAGE, JOSEPH LOOMIS,
Respondents.

AT&T Mositity LLC; NEW CINGULAR WIRELESS
PCS LLC; NEW CINGULAR WIRELESS SERVICES, INC.,
Petitioners,
Vv.

STEVEN MCARDLE,
Respondent.

On Petitions for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

BRIEF OF AMICI CURIAE AMERICAN BANKERS
ASSOCIATION AND CONSUMER BANKERS
ASSOCIATION IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains

5,908 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 26, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
